No. ___ ____

lN THE SUPREME COURT OF THE UNITED STATES
LADAWN DOUGLAS
Petitione r
V.

KONDAUR CAPITAL CORPORATION
Respondent

CERTIFICATE OF SERVICE
I, Crystal N. Hopkins, counsel for petitioner and a member of the Bar of this Court,
certify that, on May 21, 2020, three copies of the Petition for Writ of Certiorari in the
above captioned case were sent, by United States mail, postage prepaid, properly
addresse d to Respondent.
Kondaur Capital Corporation
333 S. Anita Drive, Suite 400
Orange, CA 92868
Attorney General Dana Nessel
G. Mennen Williams Building
525 West Ottawa Street
P.O. Box 30212
Lansing, MI 48909
I further certify that all parties required to be served have been served.

Cry al N. Hopkins
{

